Case: 18-31066

Document: 00515475748

Page: 1

Date Filed: 07/02/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-31066
Summary Calendar

FILED
July 2, 2020
Lyle W. Cayce
Clerk

WILBERT WILLIAMS, also known as Serenity Izabel Williams,
Plaintiff-Appellant
v.
BEVERLY KELLY, Assistant Warden over treatment; In her individual and
official capacity; CHRIS POLK, Assistant Director of Nurses; In his individual
and official capacity; ROBERT C. TANNER, WARDEN, B. B. RAYBURN
CORRECTIONAL CENTER, In his individual and official capacity; JAMES M.
LEBLANC, SECRETARY, DEPARTMENT OF PUBLIC SAFETY AND
CORRECTIONS, In his individual and official capacity; TERESA KNIGHT,
Director of Nursing,
Defendants-Appellees

Appeal from the United States District Court
for the Eastern District of Louisiana
USDC No. 2:17-CV-12993

Before KING, GRAVES, and WILLETT, Circuit Judges.
PER CURIAM:*
Wilbert Williams appeals the district court’s dismissal with prejudice of
his claims under the Eighth Amendment and the Equal Protection Clause for

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case: 18-31066

Document: 00515475748

Page: 2

Date Filed: 07/02/2020

No. 18-31066
injunctive relief against the defendant Louisiana prison officials requiring
them to provide him with sex reassignment surgery to treat his gender
dysphoria. We affirm.
We do not address Williams’s equal protection claim because it was not
raised on appeal until Williams filed a reply brief.

See Yohey v. Collins,

985 F.2d 222, 225 (5th Cir. 1993). Moreover, even if the issue were cognizable,
it would be deemed abandoned because Williams did not brief it meaningfully.
See id. at 224-25.
On de novo review, we conclude that Williams’s Eighth Amendment
claim of deliberate indifference to serious medical needs fails as a matter of
law. See McLin v. Ard, 866 F.3d 682, 688 (5th Cir. 2017); Harris v. Hegmann,
198 F.3d 153, 156 (5th Cir. 1999). Williams asks us to hold that gender
dysphoria is a serious medical condition whose proper treatment consists of
both hormonal therapy and sex reassignment surgery.

But that plea is

foreclosed by our recent holding in Gibson v. Collier, 920 F.3d 212, 215 (5th
Cir.), cert, denied, 140 S. Ct. 653 (2019), that “[a] state does not inflict cruel
and unusual punishment by declining to provide sex reassignment surgery to
a transgender inmate.” Moreover, Williams’s deliberate indifference claim
rings hollow because the defendants once attempted and later offered to correct
his gender dysphoria through hormonal therapy, which he admits is a known
course of treatment. See Banuelos v. McFarland, 41 F.3d 232, 235 (5th Cir.
1995); see also Gobert v. Caldwell, 463 F.3d 339, 346 (5th Cir. 2006).
For these reasons, we affirm the district court’s ruling that Federal Rule
of Civil Procedure 12(b)(6) dictates dismissal as a matter of law. See Harris,
198 F.3d at 156.1
1 The district court’s reasoning turned on Williams’s failure to claim that he had been
medically counseled to have sex reassignment surgery. But the district court did not have the
benefit of our holding in Gibson that declining to provide sex reassignment surgery to an
2

Case: 18-31066

Document: 00515475748

Page: 3

Date Filed: 07/02/2020

No. 18-31066
AFFIRMED; MOTION FOR STAY DENIED.

inmate does not violate the Eighth Amendment. 920 F.3d at 215. We therefore affirm based
on Gibson. See United States v. Ho, 311 F.3d 589, 602 n.12 (5th Cir. 2002) (stating that we
may affirm on any basis supported by the record).

3

Case: 18-31066

Document: 00515475754

Page: 1

Date Filed: 07/02/2020

United States Court ofAppeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

LYLE W. CAYCE
CLERK

July 02, 2020

MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 18-31066

Wilbert Williams v. Beverly Kelly, et al
USDC No. 2:17-CV-12993

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36.
(However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)
Fed. R. App. P. 39 through 41, and 5th Cir. R.s 35, 39, and 41 govern
costs, rehearings, and mandates.
5th Cir. R.s 35 and 40 require
you to attach to your petition for panel rehearing or rehearing en
banc an unmarked copy of the court's opinion or order.
Please
read carefully the Internal Operating Procedures (IOP's) following
Fed. R. App. P. 40 and 5th Cir. R. 35 for a discussion of when a
rehearing may be appropriate, the legal standards applied and
sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.
Direct Criminal Appeals. 5th Cir. R. 41 provides that a motion for
a stay ol mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court.
Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41.
The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel.
Court appointed counsel is responsible
for filing petition (s) for rehearing (s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order.
If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and cerbiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 18-31066

Document: 00515475754

Page: 2

Date Filed: 07/02/2020

Sincerely,
LYLE W. CAYCE, Clerk

4

%

By:
Nancy F. Dolly, Deputy Clerk
Enclosure (s)
Mr.
Ms.
Mr.
Mr.

William David Coffey
Angela Jacketti O'Brien
Christopher Neal Walters
Wilbert Williams

Case: 18-31066

Document: 00515475774

Page: 1

Date Filed: 07/02/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 18-31066
Summary Calendar
D.C. Docket No. 2:17-CV-12993

FILED
July 2, 2020
Lyle W. Cayce
Clerk

WILBERT WILLIAMS, also known as Serenity Izabel Williams,
Plaintiff - Appellant
v.

BEVERLY KELLY, Assistant Warden over treatment; In her individual and
official capacity; CHRIS POLK, Assistant Director of Nurses; In his
individual and official capacity; ROBERT C. TANNER, WARDEN, B. B.
RAYBURN CORRECTIONAL CENTER, In his individual and official
capacity; JAMES M. LEBLANC, SECRETARY, DEPARTMENT OF PUBLIC
SAFETY AND CORRECTIONS, In his individual and official capacity;
TERESA KNIGHT, Director of Nursing,
Defendants - Appellees
Appeal from the United States District Court for the
Eastern District of Louisiana
Before KING, GRAVES, and WILLETT, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on file.
It is ordered and adjudged that the judgment of the District Court is
affirmed.

Case 2:17-cv-12993-SSV Document 33 Filed 09/14/18 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WILBERT WILLIAMS A/K/A
SERENITY IZABEL WILLIAMS

CIVIL ACTION
NO. 17-12993

VERSUS

SECTION “R” (1)

BEVERLY KELLY, ET AL.
JUDGMENT
Considering the Court’s order1 on file herein,

IT IS ORDERED, ADJUDGED AND DECREED that plaintiffs claims
are hereby DISMISSED WITH PREJUDICE.

New Orleans, Louisiana, this 14th day of September, 2018.

SARAH S. VANCE
UNITED STATES DISTRICT JUDGE

R. Doc. 32.

Case 2:17-cv-12993-SSV Document 32 Filed 09/14/18 Page lot 2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
CIVIL ACTION

WILBERT WILLIAMS A/K/A
SERENITY IZABEL WILLIAMS

NO. 17-12993

VERSUS

SECTION “R” (1)

BEVERLY KELLY, ET AL.
ORDER

Before the Court is defendants’ motion to dismiss plaintiff s amended
complaint,1 plaintiffs motion for preliminary injunction,2 and plaintiffs
motion for default judgment.3 The Magistrate Judge recommends that
defendants’ motion to dismiss be granted and plaintiff s motions be denied.4
The Court has reviewed de novo the amended complaint^ the parties’ briefs,
applicable law, the Magistrate Judge’s Report and Recommendation,6 and
plaintiffs

objections

to

the

Magistrate

Judge’s

Report

and

Recommendation.7 The Magistrate Judge’s recommended ruling is correct

3
4
5
6
7

R.
R.
R.
R.
R.
R.
R.

Doc. 24.
Doc. 17.
Doc. 19.
Doc. 30 at 22.
Doc. 8.
Doc. 30.
Doc. 31.

Case 2:17-cv-12993-SSV Document 32 Filed 09/14/18 Page 2 of 2

and there is no merit to plaintiffs objections. The Court therefore adopts the
Magistrate Judge’s Report and Recommendation as its opinion herein.
Accordingly, plaintiffs motion for a preliminary injunction is
DENIED, plaintiffs motion for default judgment is DENIED, and
defendants’ motion to dismiss is GRANTED. Plaintiff s amended complaint
is DISMISSED WITH PREJUDICE.

New Orleans, Louisiana, this 14th

day of September, 2018.

SARAHS. VANCE
UNITED STATES DISTRICT JUDGE

2

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 1 of 22

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF LOUISIANA
WILBERT WILLIAMS
a/k/a SERENITY IZABEL WILLIAMS
VERSUS

CIVIL ACTION
NO. 17-12993

BEVERLY KELLY, ASSISTANT
WARDEN, ET AL.

SECTION: “R”(l)

REPORT AND RECOMMENDATION
Wilbert Williams a/k/a Serenity Izabel Williams, a state prisoner, filed this federal civil
action pursuant to 42 U.S.C. § 1983 against the following defendants: Beverly Kelly, the Assistant
Warden of the Rayburn Correctional Center (“Rayburn”); Chris Polk, Rayburn’s Assistant
Director of Nursing; Robert Tanner, Rayburn’s Warden; and James M. LeBlanc, the Secretary of
the Louisiana Department of Public Safety and Corrections.1 Plaintiff later filed an amended
complaint to add two new defendants: Teresa Knight, Rayburn’s Director of Nursing; and Dr.
Robert Cleveland, the physician at Rayburn.2 In this lawsuit, plaintiff claims that the defendants
have been deliberately indifferent to her need for medical treatment for gender dysphoria and have
violated her right to equal protection.3

1 Rec. Doc. 1.
2 Rec. Doc. 8. When docketing the amended complaint, the Clerk of Court inadvertently failed to add Dr. Cleveland
as a defendant on the docket sheet and to issue summons with respect to him. He is, however, a defendant herein.
3 Due to the nature of plaintiffs allegations, the Court ordered that plaintiffs medical and grievance records be
produced both to the Court and to her for her use in this proceeding. Rec. Doc. 20. Those records have been filed
into this federal record. Rec. Docs. 22 and 26.

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 2 of 22

Several motions are currently pending before the Court. Plaintiff has filed motions for a
preliminary injunction4 and default judgment.5 The defendants have filed a motion to dismiss,6
which plaintiff has opposed.7
I. Plaintiffs Allegations
In her original complaint, plaintiff made the following allegations:8
Serenity Izabel Williams is an anatomical male who is suffering from
Gender Dysphoria. This is a rare psychiatric disorder in which she feels persistently
uncomfortable about her anatomical sex, and who typically seek medical treatment,
including sexual reassignment surgery. Gender Dysphoria is a serious medical
condition recognized by the medical community as a serious condition.
All Defendants are all in deliberate indifference by imposing a substantial
risk of serious harm to Plaintiff Williams’ present and future health.
Plaintiff avers that she’s on feminizing hormone therapy. The final step of
Williams’ treatment is sexual reassignment surgery, which would bring her primary
and secondary sex characteristics into conformity with her female gender identity
and therefore treat the severe mental anguish she experiences as a result of her
gender dysphoria.
Plaintiff avers that all of the defendants has been informed that she have
been and still is suffering with a serious medical condition which is known as
“Gender Dysphoria” and have been denied serious medical treatment such as sex
reassignment surgery and be transfer to an all female’s prison.
4 Rec. Doc. 17.
5 Rec. Doc. 19.
6 Rec. Doc. 24. Apparently as a result of the Clerk’s error, see supra note 2, Dr. Cleveland is not listed as a movant
on the motion, see Rec. Doc. 24; however, he is acknowledged therein as a defendant, see Rec. Doc. 24-1, pp. 9, 1112, and 14. Therefore, the Court considers Dr. Cleveland as a movant with respect to the motion. However, even if
there is some question as to the propriety of that action, the Court has the independent authority to dismiss the claim
against Dr. Cleveland suasponte pursuant to 28 U.S.C. §§ 1915(e)(2)(B)(i) and 1915(A)(b)( 1). Those sections grant
a federal court authority to screen prisoner and in forma pauperis complaints and dismiss any claim therein which
“fails to state a claim upon which relief may be granted.” The standard of review applicable under those sections
mirrors the standard of review under Rule 12(b)(6). See, e.g.. Preston v. Hicks. 721 Fed. App’x 342, 344 (5th Cir.
2018). Therefore, because plaintiff fails to state a claim upon which relief may be granted for the reasons explained
in this opinion, dismissal of the claims against Dr. Cleveland is appropriate regardless of whether those claims are
adjudicated on the basis of the Rule 12(b)(6) motion or pursuant to the Court’s screening authority.
7 Rec. Doc. 29. That opposition was improperly styled and docketed as a motion; however, it is simply an opposition
to the defendants’ motion. Accordingly, the Clerk of Court is hereby ORDERED to mark that “motion” as terminated
on the docket sheet.
The pertinent sections of the complaint are quoted herein without any corrections to grammar; however, section
headings have been omitted.

2

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 3 of 22

All defendants not only being aware of the facts that by denying Williams
a sexual reassignment surgery; they have caused her extreme anxiety, and
depression that she go to sleep crying and wake up crying knowing that she don’t
feel comfortable as she is in life. She also thought of self-castrating herself.
All defendants have disregard the risk that Williams’ gender dysphoria will
cause her to do upon herself, by failing to take reasonable measures to abate these
risks.
Plaintiff avers that defendants acted with an intent and/or purpose to
discriminate again her based upon membership in a protected class. The essence
of the Equal Protection Clause is a requirement that similarly situated persons be
treated alike.
In support of her Equal Protection Clause claim under 42 U.S.C. § 1983,
Williams alleges that all of the defendants acted with an intent and/or purpose to
discriminate against her based upon her membership in a protected class.
Specifically, she alleges that defendants intentionally treat her differently than nontransgender female inmates seeking vaginoplasty due to her gender and transgender
status by barring her from such treatment or, at a minimum, holding her to more
onerous standard, and that Defendants discriminated against her by refusing to have
her transfer to an all female’s prison.
The Plaintiff further contends that none of the above provided her with a
legitimate penological reasoning of denying her sex reassignment surgery. There
are no institution policy nor Department or State’s policies and regulations barring
the plaintiff vaginoplasty surgery. If there are statutes and regulations that bar her
from getting sex reassignment surgery; then it is facially discriminatory because it
explicitly distinguishes between treatment for transsexual woman that is designated
as presumptively “not medically necessary” (i.e. castration and vaginoplasty for
treatment of gender dysphoria) and the same treatments for non-transgender woman
(i.e. vaginoplasty for treatment of cystocele or rectocele), which are explicitly
exempted from this bar.
Here, Williams has alleged that each Defendants discriminated against her
on the basis of her transgender status. She alleges that, in considering her need for
medically necessary surgery, and vaginoplasty in particular, Defendants treated her
differently from a similarly situated non-transgender woman in need of medically
necessary surgery. They articulate no important governmental interest, much less
describe how their gender classification - which makes it more difficult for a
transgender person to receive gender reassignment surgery than it is for a cisgender
woman - is substantially related to that interest.9
In her amended complaint, plaintiff added the following additional pertinent allegations:

9 Rec. Doc. 1, pp. 4-8.

3

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 4 of 22

1.

Plaintiff has been living as a female since adolescence in the early 2000s;

2.

She has been in custody since on or about October 16, 2015;

3.

In 2016, a prison psychiatrist, Dr. Matthew Gamble, diagnosed her as suffering

from gender dysphoria;
4.

She began feminizing hormone therapy on June 29, 2017;

5.

She is classified in the prison system as transgender “based on her sexual preference

and her mental health status”;
6.

She requested sex reassignment surgery on “numerous occasions” with no success;

7.

She filed an administrative grievance which was denied at the final step by

defendant LeBlanc;
8.

Defendants are aware that she has attempted suicide on “numerous occasions since

childhood,” and their refusal to provide sex reassignment surgery poses an unreasonable risk to
her health and life;
9.

Sex reassignment surgery would allow plaintiff “to reduce the high dosages of

hormones she receives, which put her at increased risk for heart and vascular condition and certain
types of cancer”;
10.

If she goes untreated or if treatment is discontinued, there is a severe risk that she

“will experience suicidal tendencies, the impulse to engage in self-castration, or self-harm,
clinically significant depression, anxiety, and mental impairment. «io
Plaintiff attached to her amended complaint copies of the responses to her administrative
grievance. At the first step, Warden Tanner denied relief, stating:

10 Rec. Doc. 8, pp. 3-10.

4

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 5 of 22

Your complaint seeking sex reassignment surgery and an eventual transfer
to a female prison has been reviewed.
According to your medical record, you were properly evaluated by the
medical staff at his [sic] facility and subsequently prescribed hormone replacement
therapy. You have been referred to the management team for continued review of
your status. Documentation in your medical record indicates that you are noncompliant with taking your treatment regime as prescribed. As a result of your noncompliance, you are not eligible for consideration for gender affirming surgery.
You are encouraged to comply with your treatment plan and continue to meet with
the mental health staff as needed.
Your request for a remedy is denied.11
At the second and final step of the administrative remedy procedure, Secretary LeBlanc’s designee
then likewise denied relief, stating:
It has been determined that your complaint is without merit. The medical
staff has addressed your concerns in an appropriate manner and in accordance with
DOC Health Care Policy. Medical opinion is controlling. The care you have
received as well as the care you will continue to receive from the Medical staff is
determined adequate for your health care concerns. As such, this office has
accepted staff s position in this matter and concurs with the response provided at
the First Level. Therefore, administrative intervention is not forthcoming.
Your request for relief is denied.12
II. Motion for Preliminary Injunction
Plaintiff has filed a motion for a preliminary injunction.13 Under the law of this Circuit, a
plaintiff must make a clear showing that her case satisfies the following four criteria before she
can receive a preliminary injunction: (1) a substantial likelihood exists that she will succeed on
the merits of her claim; (2) a substantial threat of irreparable harm exists if the injunction is not
granted; (3) the threatened injury outweighs any harm to the defendants if the injunction is granted;
and (4) the injunction will not undermine the public interest. See Valiev v. Rapides Parish School

11 Rec. Doc. 8-5, p. 4. The Court notes that plaintiff vigorously denies the allegation that she was non-compliant with
her treatment orders. See Rec. Doc. 29-1, p. 5; Rec. Doc. 29-3, pp. 2-3. However, that factual dispute is irrelevant to
the Court’s analysis, in that her medical claim fails in any event for the reasons explained herein.
12 Id. at p. 5.
13 Rec. Doc. 17.

5

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 6 of 22

Board, 118 F.3d 1047,1051 (5th Cir. 1997); see also Ingebresten v. Jackson Public School District.
88 F.3d 274, 278 (5th Cir. 1996); Doe v. Duncanville Independent School District. 994 F.2d 160,
163 (5th Cir. 1993); Holland American Insurance Co. v. Succession of Roy. 777 F.2d 992, 997
(5th Cir. 1985). She must satisfy all four factors; a failure to satisfy even one of the four factors
requires a denial of the preliminary injunction. See Mississippi Power & Light v. United Gas Pipe
Line Co.. 760 F.2d 618, 621 (5th Cir. 1985).
For the reasons explained infra, plaintiff’s claims should be dismissed. Therefore, she
cannot show that there is a substantial likelihood that she will succeed on the merits of her claims,
and, accordingly, her motion for a preliminary injunction should be denied.
III. Motion for Default Judgment
Plaintiff has also filed motion for the entry of a default judgment.14 However, for the
following reasons, it is clear that the motion should be denied because the defendants were never
technically in default and, in any event, a default judgment would be inappropriate.
First, because plaintiff is an inmate, her civil action is subject to the Prison Litigation
Reform Act of 1995 (“PLRA”). “[Ujnlike in the typical civil case, defendants do not have to
respond to a complaint covered by the PLRA until required to do so by the court, and waiving the
right to reply does not constitute an admission of the allegations in the complaint.” Jones v. Bock.
549 U.S. 199, 213-14 (2007) (emphasis added); 42 U.S.C. § 1997e(g)(l). In the instant case, the
Court never entered an order directing the defendants to respond to the complaint, and, therefore,
they were not in default. See, e.g.. McCurdy v. Johnson. No. 2:08-cv-01767, 2012 WL 3135906,
at*l-2(D.Nev. Aug. 1,2012).

14 Rec. Doc. 19.

6

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 7 of 22

Second, the motion for default judgment is premature because a default has not been
entered pursuant to Fed. R. Civ. P. 55(a). See Structural Concrete Products. LLC v. Clarendon
America Insurance Co., 244 F.R.D. 317, 328 (E.D. Va. 2007); Griffin v, Foti. Civ. Action No. 031274, 2003 WL 22836493, at *1 (E.D. La. Nov. 24, 2003); Great Atlantic & Pacific Tea Co. v.
Heath, Civ. Action No. 95-509, 1995 WL 258317, at *1 (E.D. La. Apr. 27, 1995).
Third, even if the defendants had been in default, and even if a default had been entered,
entry of a default judgment still would not be warranted. Entry of a default judgment is matter of
discretion, and “a party is not entitled to a default judgment as a matter of right, even where the
defendant is technically in default. In fact, default judgments are a drastic remedy, not favored by
the Federal Rules and resorted to by courts only in extreme situations.” Lewis v. Lvnn. 236 F.3d
766, 767 (5th Cir. 2001) (citations, quotation marks, and brackets omitted); accord Griffin. 2003
WL 22836493, at *1. This is not such a situation in light of the fact that plaintiffs complaint
should be dismissed for the reasons set forth in this opinion.
IV. Motion to Dismiss
A. Rulel2(bim
In their motion, the defendants first argue that any claims against them for monetary
damages in their official capacities should be dismissed pursuant to Rule 12(b)(1) of the Federal
Rules of Civil Procedure.15 That rule governs challenges to a court’s subject-matter jurisdiction.
“A case is properly dismissed for lack of subject matter jurisdiction when the court lacks the
statutory or constitutional power to adjudicate the case.”

15 See Rec. Doc. 24-1, pp. 3-5.

7

Home Builders Association of

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 8 of 22

Mississippi, Inc, v. City of Madison, 143 F.3d 1006, 1010 (5th Cir. 1998) (quotation marks
omitted).
If plaintiff had sought monetary damages in this action, then the defendants would have a
valid point. All defendants are officials with the Louisiana Department of Public Safety and
Corrections, and it is clear that “[a] suit against a state official in his official capacity for monetary
damages is treated as a suit against the state and is therefore barred by the Eleventh Amendment.”
Chaney v. Louisiana Work Force Commission. 560 Fed. App’x 417, 418 (5th Cir. 2014); accord
Watson-Buisson v, Louque. Civ. Action No. 12-1871, 2013 WL 5236611, at *1 (E.D. La. Sept.
13, 2013).16
However, in her opposition, plaintiff correctly notes that defendants’ argument on this
point is misplaced, because she has sought only prospective injunctive relief and made no claim
for monetary damages.17 Where, as here, a plaintiff has sued state officials in their official
capacities for prospective injunctive relief based on allegations that those officials have acted in
an unconstitutional manner, a federal court has jurisdiction over those claims. See, e.g„ Darlak v,
Bobear, 814 F.2d 1055, 1061 (5th Cir. 1987) (“[T]hat part ofthis case is a suit seeking prospective

16 As the United States Fifth Circuit Court of Appeals has explained:
The Eleventh Amendment bars a state’s citizens from filing suit against the state or its
agencies in federal courts. ... By statute, Louisiana has refused any ... waiver of its Eleventh
Amendment sovereign immunity regarding suits in federal court. See La.Rev.Stat.Ann 8
13:5106(A).
Furthermore, Congress may only abrogate a state’s Eleventh Amendment immunity by
unequivocally expressing its intent to do so and by acting pursuant to a valid exercise of power. We
note that in enacting § 1983, Congress did not explicitly and by clear language indicate on its face
an intent to sweep away the immunity of the States.
Cozzo v. Tangipahoa Parish Council-President Government. 279 F.3d 273, 280-81 (5th Cir. 2002) (citations and
quotation marks omitted); Champagne v. Jefferson Parish Sheriffs Office. 188 F.3d 312, 313-14 (5th Cir. 1999).
17 Rec. Doc. 29-1, pp. 3-4: see also Rec. Doc. 1, p. 9; Rec. Doc. 8, p. 21.

8

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 9 of 22

injunctive relief against state officials who are alleged to have acted unconstitutionally, and
therefore the Ex parte Young exception to the eleventh amendment applies and both the district
court and this court have jurisdiction to reach the [constitutional] issue presented.” (footnote
omitted)). Therefore, the defendants are not entitled to a dismissal pursuant to Rule 12(b)(1).
B. Rule 12flb¥6I
The defendants next argue that plaintiffs claims should be dismissed pursuant to Rule
12(b)(6) of the Federal Rules of Civil Procedure. That rule allows a defendant to move for
dismissal when a plaintiff fails to state a claim upon which relief can be granted. In ruling on a
Rule 12(b)(6) motion, “[t]he court accepts all well-pleaded facts as true, viewing them in the light
most favorable to the plaintiff.” In re Katrina Canal Breaches Litigation. 495 F.3d 191, 205 (5th
Cir. 2007) (quotation marks omitted). However, “[t]o survive a Rule 12(b)(6) motion to dismiss,
the plaintiff must plead sufficient facts to state a claim to relief that is plausible on its face. Factual
allegations must be enough to raise a right to relief above the speculative level, on the assumption
that all the allegations in the complaint are true (even if doubtful in fact).” Id, (citation, footnote,
and quotation marks omitted). On that point, the United States Supreme Court has explained:
A claim has facial plausibility when the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the defendant is liable for the
misconduct alleged. The plausibility standard is not akin to a “probability
requirement,” but it asks for more than a sheer possibility that a defendant has acted
unlawfully. Where a complaint pleads facts that are merely consistent with a
defendant’s liability, it stops short of the line between possibility and plausibility
of entitlement to relief.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citations and quotation marks omitted).

9

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 10 of 22

1. Preliminary Matters
Before turning to plaintiff s specific claims, the Court must address two preliminary issues
raised by the defendants.
a. Qualified Immunity
The defendants argue that they are entitled to qualified immunity. However, because
plaintiff seeks only injunctive relief, that defense is simply inapplicable in this case. See, e.g„
Williams v. Ballard, 466 F.3d 330, 334 n.7 (5th Cir. 2006) (“Qualified immunity does not protect
officials from injunctive relief.”).
b. Improper Defendants
The defendants next argue that Kelly, Turner, and LeBlanc are improper defendants in this
lawsuit because they hold supervisory administrative positions and were not personally involved
in the making of the medical decisions challenged herein. That is correct.
A supervisory defendant cannot be held liable pursuant to § 1983 based merely on a theory
of strict liability18 or vicarious liability.19 Rather, for a supervisory official to be held liable for a
federal civil rights violation under § 1983, he or she must have been personally involved in the
violation. See Thompson v. Steele. 709 F.2d 381, 382 (5th Cir. 1983) (“Personal involvement is
an essential element of a civil rights cause of action.”). Therefore, supervisory officials who are
not personally involved in the provision of an inmate’s medical care cannot be held liable with

18 Harris v. Greer. 750 F.2d 617, 618 (7th Cir. 1984) (“[TJhere is no concept of supervisor strict liability under section
1983.”); see also Jenkins v. Wood. 81 F.3d 988, 994 (10th Cir. 1996); Evans v. Gusman. Civ. Action No. 08-703,
2008 WL 2223281, at *2 (E.D. La. May 23, 2008); Castillo v. Blanco. Civ. Action No. 07-215, 2007 WL 2264285, at
*5 (E.D. La. Aug. 1,2007).
19 Thompkins v. Belt. 828 F.2d 298, 303 (5th Cir. 1987) (“Under section 1983, supervisory officials are not liable for
the actions of subordinates on any theory of vicarious liability.”): see also Oliver v. Scott. 276 F.3d 736, 742 (5th Cir.
2002) (“Section 1983 does not create supervisory or respondeat superior liability.”); Evans. 2008 WL 2223281, at
*2.

10

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 11 of 22

respect to claims challenging medical decisions. See, e.g.. Gillam v. Gusman. Civ. Action No. 151737, 2015 WL 7289849, at *3 (E.D. La. Oct. 26, 2015), adopted. 2015 WL 7302238 (E.D. La.
Nov. 18, 2015).20
Although not raised by the defendants, the Court also notes that there appears to be an
additional problem with respect to plaintiffs claims against the three defendants herein who were
allegedly personally involved in providing her medical care at Rayburn: Knight, Rayburn’s
Director of Nursing; Polk, Rayburn’s Assistant Director of Nursing; and Dr. Cleveland. Even if
the Court assumes that those defendants were proper with respect to plaintiffs claims at the time
this lawsuit was filed,21 it appears that they are no longer proper defendants. Since filing this
lawsuit, plaintiff has been transferred from Rayburn to a different facility, the Elayn Hunt
Correctional Center.22 In light of that transfer, it appears that plaintiffs claims for injunctive relief,
the only form of relief she is seeking herein, would be moot with respect to those defendants. See
Herman v. Holiday, 238 F.3d 660, 665 (5th Cir. 2001); see also Million v. Grounds. 690 Fed.
App’x 163, 164 (5th Cir. 2017); Bravv. Young, 261 Fed. App’x 765, 766 (5th Cir. 2008); Vincent
v. Stevenson, No. 96-30452, 1997 WL 33444 (5th Cir. Jan. 13, 1997). Nevertheless, because this
20 Further, although Tanner and LeBlanc were involved in the denial of plaintiff s administrative grievance, that fact
likewise does not subject them to liability. Inmates have no constitutional right to an adequate and effective grievance
procedure or to have their complaints investigated and resolved to their satisfaction. Bonneville v, Basse. 536 Fed.
App’x 502, 503 (5th Cir. 2013); Propes v. Mays, 169 Fed. App’x 183, 184-85 (5th Cir. 2006); Geiger v. Jowers. 404
F.3d 371, 373-74 (5th Cir. 2005); Davis v. St. Charles Parish Correctional Center. Civ. Action No. 10-98, 2010 WL
890980, at *5 (E.D. La. Mar. 8, 2010); Carter v. Strain. Civ. Action No. 09-15, 2009 WL 3231826, at *3 (E.D. La.
Oct. 1, 2009); Tyson v. Tanner. Civ. Action No. 08-4599, 2009 WL 2883056, at *5 (E.D. La. Aug. 25, 2009);
Mahogany v. Miller. Civ. Action No. 06-1870, 2006 WL 4041973, at *1 (E.D. La. Aug. 3, 2006), appeal dismissed.
252 Fed. App’x 593 (5th Cir. 2007). Therefore, the mere fact that an official denied a plaintiffs grievance does not
render him liable for the purported underlying violation on which the grievance is based. See, e.g.. Harold v. Goff.
Civ. Action No. 16-13041, 2016 WL 8137642, at *5 (E.D. La. Dec. 1, 2016), adopted. 2017 WL 413082 (E.D. La.
Jan. 30, 2017).
21 This assumption appears questionable with respect to nurses Knight and Polk. Plaintiffs claims stem from the fact
that she was denied sex reassignment surgery. It seems unlikely that the prison’s nurses, as opposed to the prison
physician, were the ultimate decisionmakers as to whether surgery would be provided.
22 Rec. Doc. 21.

11

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 12 of 22

argument was not raised by the defendants, and because plaintiff could amend her complaint to
add new defendants who are presumably now making similar decisions with respect to her medical
care at her new facility, the Court, out of an abundance of caution, notes that plaintiffs claims fail
on the merits for the following reasons.
2. Plaintiffs Claims
In this lawsuit, plaintiff asserts two related but nevertheless distinct claims: a medical
claim under the Eighth Amendment and an Equal Protection claim under the Fourteenth
Amendment.
a. Medical Claim
Plaintiffs primary claim is that her right to medical care has been violated. Obviously, all
inmates, regardless of whether they are pretrial detainees or convicted prisoners, have a right to
medical care in jail. However, that right is a limited one, and an inmate’s constitutional right to
medical care is violated only if her “serious medical needs” are met with “deliberate indifference”
on the part of penal authorities. See Thompson v. Upshur County. Texas. 245 F.3d 447, 457 (5th
Cir. 2001); Harris v. Hegmann. 198 F.3d 153, 159 (5th Cir. 1999).
In this case, plaintiff alleges that she has been diagnosed with gender dysphoria, an
allegation which the defendants do not dispute. In recent years, the medical community’s view of
that condition has evolved. As one author recently observed:
An individual is transgender if his or her gender identity differs from the
sex he or she was assigned at birth. Once known as “Gender Identity Disorder”
(GID), the American Psychological Association (APA) renamed the condition
“gender dysphoria” in its Diagnostic and Statistical Manual of Mental Disorders
(DSM-5) in 2012. The APA no longer conceptualizes gender dysphoria as a mental
illness, but does consider it a medical condition that can greatly affect a patient’s
mental and physical health. The APA defines gender dysphoria as a “marked
difference between an individual’s expressed or experienced gender and the gender

12

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 13 of 22

that others would assign him or her that continues for at least six months.” It can
cause “clinically significant distress or impairment in social, occupational, or other
important areas of functioning” and can be manifested in a variety of ways,
including the “strong desire to be treated as the other gender and the strong desire
to rid oneself of one’s sexual characteristics.”
Morgan S. Mason, Note and Comment, Breaking the Binary: How Shifts in Eighth Amendment
Jurisprudence Can Help Ensure Safe Housing and Proper Medical Care for Inmates with Gender
Dysphoria, 71 Vand. L. Rev. En Banc 157, 160 (2018) (footnotes omitted).
Courts, however, have struggled with the issue of whether gender dysphoria constitutes a
“serious medical need” for the purpose of Eighth Amendment claims. The Supreme Court has not
spoken on that issue. Id, at 183 (“While medical consensus on gender dysphoria has grown, the
Supreme Court has never directly found it to be a serious medical need for Eighth Amendment
purposes. ); see also Laura R. Givens, Note, Why the Courts Should Consider Gender Identity
Disorder a Per Se Serious Medical Need for Eighth Amendment Purposes. 16 J. Gender Race &
Just. 579, 587 (2013) (“The Supreme Court has never addressed the question of whether GID
constitutes a serious medical need.”). Meanwhile, the United States Fifth Circuit Court of Appeals
Court of Appeals has side-stepped the issue. Pravlor v. Texas Department of Criminal Justice. 430
F.3d 1208, 1206 (5th Cir. 2005) (assuming, without deciding, that transsexualism presented a
serious medical need).
In light of that absence of controlling precedent, the Court must revert to the general
standards for resolving the issue. In this circuit, “[a] serious medical need is one for which
treatment has been recommended or for which the need is so apparent that even laymen would
recognize that care is required.” Gobert v. Caldwell. 463 F.3d 339, 345 n.12 (5th Cir. 2006).

13

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 14 of 22

Within the medical community, there appears to be little dispute that gender dysphoria
normally requires medical treatment and that failure to treat the condition can pose significant
risks:
The World Professional Association for Transgender Health (WPATH) is
the leading global authority on medical care for persons with gender dysphoria - it
promulgates standards that are embraced by the APA and considered scientific
consensus by psychologists and gender specialists. The WPATH also considers
gender dysphoria to be a serious medical condition that carries a high risk of suicide
and attempted self-surgery if left untreated. Indeed, case law on prisoners with
untreated gender dysphoria is rife with examples of inmates committing self-harm,
often by mutilating or attempting to remove their own genitals. Receiving gender­
confirming therapy is vital for many transgender individuals. Gender dysphoria
patients have a 20% to 30% suicide rate if left untreated, compared to only a 1% to
2% rate if receiving proper medical care. The fact that treatment makes persons
with gender dysphoria 10 to 30 times less likely to commit suicide puts its
importance into sharp relief.
Mason, supra, at 160-61 (footnotes omitted): see also Fields v. Smith. 653 F.3d 550, 553 (7th Cir.
2011) (“A person with GID often experiences severe anxiety, depression, and other psychological
disorders. Those with GID may attempt to commit suicide or to mutilate their own genitals.”).
In light of such considerations, as well as persuasive authority from other circuits, the
undersigned has no hesitation in concluding that gender dysphoria can, at least in some
circumstances, constitute a “serious medical need.” See Tammi S. Etheridge, Safety v. Surgery:
Sex Reassignment Surgery and the Housing of Transgender Inmates. 15 Geo. J. Gender & L. 585,
592 (2014) (“Seven circuits of the U.S. Courts of Appeals have concluded that severe GID or
transsexualism constitutes a ‘serious medical need’ for purposes of the Eighth Amendment. No
circuit court has held otherwise.” (emphasis added; footnotes omitted)); see also Susan S. Bendlin,
Gender Dysphoria in the Jailhouse: A Constitutional Right to Hormone Therapy?. 61 Clev. St. L.
Rev. 957, 967 (2013) (“To the extent that the circuits differ, it is not over whether Gender

14

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 15 of 22

Dysphoria constitutes a serious medical need, but over whether treatment is warranted in a specific
case, and if so, what type of treatment should be provided. The objective prong of the test under
§ 1983 - ‘serious medical need’ - can typically be satisfied by the inmate.”).23 Plaintiffs
allegations, accepted as true for the purposes of the motion to dismiss, suffice to allege the
existence of a “serious medical need” in this case.
However, as noted, an Eighth Amendment medical claim also has a second component:
deliberate indifference.” That is the component on which most such claims involving gender
dysphoria fail. See Tara Dunnavant, Bye-Bye Binary: Transgender Prisoners and the Regulation
of Gender in the Law, 9 Fed. Cts. L. Rev. 15, 26 (2016) (“The difficulty of meeting the Eighth
Amendment deliberate indifference standard ... means that many trans prisoners are unsuccessful
with such claims.”). For the following reasons, the Court finds that plaintiffs allegations are
insufficient to state a claim of deliberate indifference in the instant case.
The United States Fifth Circuit Court of Appeals has explained:
Deliberate indifference is an extremely high standard to meet. It is
indisputable that an incorrect diagnosis by prison medical personnel does not
suffice to state a claim for deliberate indifference. Rather, the plaintiff must show
that the officials refused to treat him, ignored his complaints, intentionally treated
him incorrectly, or engaged in any similar conduct that would clearly evince a
wanton disregard for any serious medical needs. Furthermore, the decision whether
to provide additional treatment is a classic example of a matter for medical
judgment. And, the failure to alleviate a significant risk that the official should
have perceived, but did not is insufficient to show deliberate indifference.
Domino v. Texas Department of Criminal Justice. 239 F.3d 752, 756 (5th Cir. 2001) (citations,
quotation marks, and brackets omitted). “Deliberate indifference encompasses only unnecessary
23 That, of course, is not to say that gender dysphoria would necessarily constitute a “serious medical need” in every
case, in that the severity of the condition can vary. See Fields. 653 F.3d at 553 (“The feelings of dysphoria can vary
in intensity. Some patients are able to manage the discomfort, while others become unable to function without taking
steps to correct the disorder.”).

15

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 16 of 22

and wanton infliction of pain repugnant to the conscience of mankind.” McCormick v. Stalder.
105 F.3d 1059, 1061 (5th Cir. 1997); see also Stewart v. Murnhv. 174 F.3d 530, 534 (5th Cir.
1999).
Based on plaintiff s allegations, it is clear that her gender dysphoria is not being ignored
by prison officials; on the contrary, she expressly acknowledges that she has been on feminizing
hormone therapy since June 29, 2017.24
Although plaintiff would prefer a different form of treatment, i.e. sex reassignment surgery,
she does not allege that any medical professional has ever concluded either (1) that hormone
therapy is an improper form of treatment for her or (2) that sex reassignment surgery is medically
necessary for her. That is critical, because although such surgery can be necessary and appropriate
in some circumstances, a range of medically appropriate treatment options, specifically including
hormone therapy, exists for gender dysphoria. As the United States Seventh Circuit Court of
Appeals observed:
The accepted standards of care dictate a gradual approach to treatment
beginning with psychotherapy and real life experience living as the opposite
gender. For some number of patients, this treatment will be effective in controlling
feelings of dysphoria. When the condition is more severe, a doctor can prescribe
hormones, which have the effect of relieving the psychological distress. Hormones
also have physical effects on the body. For example, males may experience breast
development, relocation of body fat, and softening of the skin. In the most severe
cases, sexual reassignment surgery may be appropriate. But often the use of
hormones will be sufficient to control the disorder.
Fields, 653 F.3d at 553-54 (emphasis added). Similarly, a federal district court noted:
The Harry Benjamin Standards of Care (the “Standards of Care”) are
protocols used by qualified professionals in the United States to treat individuals
suffering from gender identity disorders. According to the Standards of Care,
psychotherapy with a qualified therapist is sufficient treatment for some
24 Rec. Doc. 8, pp. 3 and 15.

16

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 17 of 22

individuals. In other cases psychotherapy and the administration of female
hormones provide adequate relief There are, however, some cases in which sex
reassignment surgery is medically necessary and appropriate.
Kosilek v. Maloney. 221 F. Supp. 2d 156, 158-19 (D. Mass. 2002) (emphasis added).
Legal scholarship echoes that view. One author observed:
For those who receive a formal diagnosis, the recommended treatment
varies according to the individual; what is adequate to relieve the anxiety associated
with gender dysphoria for one individual may not be for another. One common
misnomer about transgender people is that surgery is the only or most desirable
option, but many trans men and women do not need to alter their bodies physically.
For some individuals, gender confirmation surgery is crucial for their well-being,
but changes in gender expression and role (hair removal, name change, voice
therapy, etc.), psychotherapy for exploring one’s gender role and processing the
stigma associated with gender dysphoria, and building social support networks are
also valid treatment option.
Dunnavant, supra, at 26 (footnotes omitted). Likewise, another author noted:
Appropriate treatment for gender dysphoria differs based on the patient; the
WPATH recommends individualized treatment plans that typically include
counseling, hormone treatment, living in accordance with one’s gender identity, or
some combination thereof. Since effective treatment varies greatly by individual,
transgender healthcare demands specific diagnoses from trained medical experts.
Gender identity specialists recommend gender-confirmation surgery (also known
as sexual reassignment surgery, or SRS) when hormone therapies and other
methods do not adequately relieve the patient’s distress.
Mason, supra, at 161 (footnotes omitted).
At its crux, whether plaintiff requires sex reassignment surgery in lieu of or in addition to
the hormone treatments is inherently a medical issue which requires the exercise of medical
judgment. See Domino v. Texas Department of Criminal Justice. 239 F.3d 752, 756 (5th Cir.
2001) (“[T]he decision whether to provide additional treatment is a classic example of a matter for
medical judgment.” (quotation marks omitted)). Generally, such matters of professional medical
judgment are better left to the expertise of medical personnel rather than to the legal expertise of

17

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 18 of 22

judges. Federal courts are therefore reluctant to second-guess such medical decisions in federal
civil rights actions. Westlake v. Lucas. 537 F.2d 857, 860 n.5 (6th Cir. 1976) (“Where a prisoner
has received some medical attention and the dispute is over the adequacy of the treatment, federal
courts are generally reluctant to second guess medical judgments and to constitutionalize claims
which sound in state tort law.”); Castro v. Louisiana. Civ. Action No. 08-4248, 2008 WL 5169401,
at *4 (E.D. La. Dec. 8, 2008) (“[MJedical judgments are not to be lightly second-guessed in a
federal civil rights action.”).
There is simply no basis whatsoever to engage in such second-guessing in the instant case.
Indeed, in a remarkably similar case, the United States First Circuit Court of Appeals expressly
denied a prisoner’s claim that her constitutional rights were violated by the choice to treat her
gender dysphoria by lesser means than sex reassignment surgery, explaining:
The law is clear that where two alternative courses of medical treatment
exist, and both alleviate negative effects within the boundaries of modem medicine,
it is not the place of our court to “second guess medical judgments” or to require
that the DOC adopt the more compassionate of two adequate options.
That the DOC has chosen one of two alternatives - both of which are
reasonably commensurate with the medical standards of prudent professionals, and
both of which provide [the prisoner] with a significant measure of relief - is a
decision that does not violate the Eighth Amendment.
Kosilek v. Spencer, 774 F.3d 63, 90 (1st Cir. 2014) (citations omitted).
Moreover, the mere fact that plaintiff disagrees with the conclusion that the hormone
therapy is appropriate in her case is not sufficient to make her claim actionable. Absent exceptional
circumstances, a prisoner’s mere disagreement with her medical treatment simply does not
constitute deliberate indifference. Gobert v. Caldwell: 463 F.3d 339, 346 (5th Cir. 2006); Chance
v. Armstrong, 143 F.3d 698, 703 (2d Cir. 1998) (“It is well-established that mere disagreement
over the proper treatment does not create a constitutional claim. So long as the treatment given is

18

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 19 of 22

adequate, the fact that a prisoner might prefer a different treatment does not give rise to an Eighth
Amendment violation.”); Norton v. Dimazana. 122 F.3d 286, 292 (5th Cir. 1997) (“Disagreement
with medical treatment does not state a claim for Eighth Amendment indifference to medical
needs.”); see also Brauner v. Coodv. 793 F.3d 493, 500 (5th Cir. 2015) (a prison doctor’s “refusal
to accommodate [a prisoner’s] requests in the manner he desired” is not deliberate indifference).
It must also be noted that it is irrelevant that a prisoner’s medical care may not be “the best
money could buy.” Mayweather v. Foti. 958 F.2d 91 (5th Cir. 1992); accord Gobert. 463 F.3d at
349 (“[Deliberate indifference exists wholly independent of an optimal standard of care.”);
McMahon v. Beard. 583 F.2d 172, 174 (5th Cir. 1978).
Lastly, it is clear that the federal constitution does not require even that an inmate’s medical
care be free from negligence or medical malpractice. Hall v. Thomas. 190 F.3d 693, 697-98 (5th
Cir. 1999); see also Kelly v. Gusman. Civ. Action No. 07-611,2007 WL 2007992, at *4 (E.D. La.
July 5, 2007); Cema v. Texas Tech Medical Staff. No. 2:03-CV-0322, 2004 WL 42602, at *2
(N.D. Tex. Jan. 7, 2004). Rather, claims of negligence or medical malpractice present issues of
state law for state courts, not federal constitutional issues for a federal court. See Estelle v.
Gamble, 429 U.S. 97, 107 (1976); Coleman v. Terrebonne Parish Criminal Justice Complex. Civ.
Action No. 13-4325, 2013 WL 6004051, at *4 (E.D. La. Nov. 13, 2013).
In summary, the determinative issue before the Court with respect to plaintiffs medical
claim is not whether she is satisfied with her care or whether her medical treatment is subpar in
some respect; rather, it is only whether her serious medical need is being met with deliberate
indifference. Her allegations are insufficient to state such a claim in this case, and, therefore, her
claim that she was denied adequate medical care should be dismissed.

19

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 20 of 22

b. Equal Protection Claim
As noted, plaintiff also asserts an equal protection claim under the Fourteenth Amendment.
In their motion, the defendants contend that because this claim is ill-defined in plaintiffs
pleadings, they are at somewhat of a loss as to how to address it. The defendants make a valid
point.
However, it appears that plaintiffs claim is that because cisgender25 female inmates are
provided vaginal surgeries in some circumstances, the refusal to provide her, a transgender female,
sex reassignment surgery violates the Equal Protection Clause. If that is indeed her claim, it has
no merit.
Even those who share plaintiffs view that this purported disparity of treatment should
constitute a violation of the Equal Protection Clause concede that the argument has not been
successful in the federal courts. As one author observed:
It would seem that prison policies that disparately harm transgender people
by failing to provide medical care to transgender prisoners when cisgender
prisoners have access ... would properly be struck down under equal protection,
particularly if heightened scrutiny applies, but transgender prisoners have had little
success with such claims against prisons.
Dunnavant, supra, at 33-34 (footnotes omitted).
The problem with such claim is that it simply does not fit within an equal protection
analysis. As the United States Fifth Circuit Court of Appeals has observed:
The Equal Protection Clause of the Fourteenth Amendment is essentially a
direction that all persons similarly situated should be treated alike. Its basics are
rote: equal protection does not require that all persons be dealt with identically,

25 it

Cisgender individuals are those whose gender identity corresponds to their sex at birth. See Cisgender, Oxford
English Dictionary (3d ed. 2015).” Campbell v. Kallas. No. 16-CV-261,2018 WL 2089351, at *1 n.l (W.D Wis Mav
4,2018).

20

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 21 of 22

but it does require that a distinction made have some relevance to the purpose for
which the classification is made.
Wood v. Collier, 836 F.3d 534, 538-39 (5th Cir. 2016) (emphasis added; footnotes, quotation
marks, and brackets omitted).
Here, plaintiff is not alleging that she is being treated differently than other prisoners
suffering from gender dysphoria. Her complaint is that she, a transgender inmate, is being denied
sex reassignment surgery, while cisgender female inmates suffering from cystocele (a prolapsed
or dropped bladder) or rectocele (a herniation of the front wall of the rectum into the back wall of
the vagina) are provided with surgical treatments for their conditions. However, because plaintiff
is not “similarly situated” to the prisoners she uses as a basis of comparison, her equal protection
claim necessarily fails. As one federal district judge recently explained in rejecting a similar claim:
[Plaintiff] pursues two theories of discrimination. First, she contends that
she is a biological male, that she is otherwise similarly situated to biological
females, and that the DOC policy denies medically necessary vaginoplasty to
biological males, but not biological females. Second, she contends that she is a
transgender inmate, that she is otherwise similarly situated to cisgender inmates,
and that the DOC policy denies medically necessary vaginoplasty to transgender
inmates, but not cisgender inmates.
“[The Supreme] Court has consistently upheld statutes where the gender
classification is not invidious, but rather realistically reflects the fact that the sexes
are not similarly situated in certain circumstances.” Michael M. v. Superior Court.
450 U.S. 464,469 (1981). This is one such circumstance.... The biological female
already has a vagina; the biological male doesn’t. The government has an interest
in ensuring that inmates receive appropriate, effective medical treatment.
Employing different decision-making policies for different types of medical
procedures does not violate the Equal Protection Clause.
Campbell v. Kallas. No. 16-cv-261,2018 WL 2089351, at * 10 (W.D. Wis. May 4,2018) (emphasis
added). Cf Cunningham v. Beavers. 858 F.2d 269, 272 (5th Cir. 1988) (“The Equal Protection

21

Case 2:17-cv-12993-SSV Document 30 Filed 08/27/18 Page 22 of 22

Clause directs that all persons similarly circumstanced shall be treated alike; it does not require
classes of people different in fact or opinion to be treated in law as though they were the same.”).
RECOMMENDATION
It is therefore RECOMMENDED that plaintiffs motion for a preliminary injunction, Rec.
Doc. 17, and her motion for default judgment, Rec. Doc. 19, be DENIED.
It is FURTHER RECOMMENDED that defendants’ motion to dismiss, Rec. Doc. 24, be
GRANTED.
It is FURTHER ORDERED that plaintiffs claims be DISMISSED WITH
PREJUDICE.
A party’s failure to file written objections to the proposed findings, conclusions, and
recommendation in a magistrate judge’s report and recommendation within fourteen (14) days
after being served with a copy shall bar that party, except upon grounds of plain error, from
attacking on appeal the unobjected-to proposed factual findings and legal conclusions accepted by
the district court, provided that the party has been served with notice that such consequences will
result from a failure to object. 28 U.S.C. § 636(b)(1); Douglass v. United Services Auto. Ass’n.
79 F.3d 1415, 1430 (5th Cir. 1996) (en banc).
New Orleans, Louisiana, this twenty-seventh day of August, 2018.

Ml2goU-&iLjL
JANJS VAN MEERVELD
UNITED STATES MAGISTRATE JUDGE

22

Additional material
from this filing is
available in the
Clerk's Office.

